No.
Supreme Court, U.S,
FILED

OCT 0 7 2020
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

fo](

— PETITIONER

(Your Name)
vs.
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

1. • (a°)
(Your Name)
<

(Address)

(City, State, Zip Code)

(Phone Number)

QUESTION(S) PRESENTED

1.

Is it lawful for a medical professional to injure a patient and just walk away?

2. Should a medical professional be held accountable for unreasonable treatment?
3.

What should the remedy be when a patient is abused and injured?

4.

Is there a standard of care instituted for medical professionals?

5.

How can a strange eye examination that caused damage be recompensed?

6. Should an acupuncturist violate trust by inserting a needle into the brain/brain stem when the
treatment request was solely for the lower back?
7. Should an acupuncturist violate the safety of the patient by not sterilizing the area in which the
needle is to be imbedded? The area, in my head, was not sterilized. If I had an indication, at all,
that she planned to put a needle in my head, I would have said, "No!" "I did not request any
treatment to my head."
8.

Should the acupuncturist be held accountable for violating, torturing and abusing a patient and
the trust of that patient?

9.

Is it lawful for acupuncturist to charge patient for violating that trust?

LIST OF PARTIES

MiAll parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

0 loeA.
Puke OdcM&

TABLE OF AUTHORITIES CITED
CASES

STATUTES AND RULES

OTHER

PAGE NUMBER

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
„,
[yfreported at 3
f'fo Lsi
I or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

|M^For cases from federal courts:
The date on which the United States Court of Appeals decided my case

was

7

"^0_______

[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:___________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________ _______, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including.___
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

"DEPRIVATION OF RIGHTS UNDER COLOR OF LAW
SUMMARY:
Section 242 of Title 18 makes it a crime for a person acting under color of any law to willfully deprive a
person of a right or privilege protected by the Constitution or laws of the United States.
For the purpose of Section 242, acts under "color of law" include acts not only done by federal, state, or
local officials within their lawful authority, but also acts done beyond the bounds Of that official's lawful
authority, if the acts are done while the official is purporting to or pretending to act in the performance
of his/her official duties. Persons acting under color of law within the meaning of this statute include
police officers, prisons guards and other law enforcement officials, as well as judges, care providers in
public health facilities, and others who are acting as public officials. It is not necessary that the crime be
motivated by animus toward the race, color, religion, sex, handicap, familial status or national origin of
the victim.
The offense is punishable by a range of imprisonment up to a life term, or the death penalty, depending
upon the circumstances of the crime, and the resulting injury, if any."
Bill of Rights

STATEMENT Of THE CASE
I am in this court because I have not received justice yet in this matter for lack of jurisdiction in previous
courts, regarding treatment from this acupuncturist for my lower back. I had received treat to my lower
back a number of times before, from this acupuncturist. My back had been injured and received the
treatment that I asked for, I hope I did. On the last occasion, however, I requested the same treatment
for my lower back and the acupuncturist stuck a needle, very deliberately, in my brain/brain stem.
Immediately, I jumped. Acupuncturist told me to not to move. I immediately felt my brain tighten, like
a contraction, very weird. Acupuncturist told me that more treatment is needed to reveal if she put the
needle in the right place in my head. I was in shock and in discomfort because my brain had been
tampered with, and it was so tight and heavy. I was scheduled for so many treatments and my brain felt
the same. I had to say, no more. I was told that I had to come back to finish treatment. I never
returned. My brain, since that time, swells to the extent of my cranium. So much pressure. It feels like
my brain will explode. I have difficulty, at times, speaking what I am thinking. I felt the needle and I
heard a sound like a tiny pig squeal ora squish awful sound. I thought, "What???? Why???? When she
told me not to move, at that instance I felt the needle in my brain/brain stem, I moved. I feel this was
reckless, irresponsible and inadequate care and tortuous. I feel this type of abuse should not be allowed
to be ignored or overlooked by any jurisdiction, and the acupuncturist should be held accountable for
this permanent damage to my brain/brain stem.

My rights were violated in major ways. I don't know if there is a brain infection or not. All I do know
about this is normally, before any needle was inserted in my skin, a solution was applied first to sterilize
the area, and, it was cold. No solution was applied to my head before that needle was inserted into my
brain/brain stem. I also know that I still feel discomfort, the heaviness and swelling in my head. I know
something is wrong and different, still.

REASONS FOR GRANTING THE PETITION

A federal court rendered my case lack jurisdiction. This matter should be granted because there are no
definitive laws for acupuncturists. There are no regulations to keep the honor of a standard of
treatment. There are no safety guidelines to ensure the health of the patients.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

IO-8L?'%r)

